No. ______
In the

Supreme Court of the United States
________________

SENECA COUNTY, NEW YORK,
Petitioner,
v.
CAYUGA INDIAN NATION OF NEW YORK,
________________

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit
________________
PETITION FOR WRIT OF CERTIORARI
________________
BRIAN LAUDADIO
MARY P. MOORE
LOUIS P. DILORENZO
BOND, SCHOENECK
& KING PLLC
350 Linden Oaks
Third Floor
Rochester, NY 14625

PAUL D. CLEMENT
Counsel of Record
ERIN E. MURPHY
MICHAEL D. LIEBERMAN
ANDREW C. LAWRENCE
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Counsel for Petitioner
February 17, 2021

ii
QUESTION PRESENTED
This Court has twice granted certiorari to decide
whether tribal sovereign immunity bars lawsuits
concerning rights to property that a tribe acquires on
the open market. See Upper Skagit Indian Tribe v.
Lundgren, 138 S.Ct. 1649 (2018); Madison Cty. v.
Oneida Indian Nation of N.Y., 562 U.S. 960 (2010)
(mem.).
Both times, however, subsequent
developments prevented the Court from definitively
answering the question. This case presents an
opportunity to definitively answer that important and
recurring question. In the decision below, the Second
Circuit doubled down on the holding that this Court
granted certiorari to review in Madison County, and
again robbed this Court’s decision in City of Sherrill
v. Oneida Indian Nation of N.Y., 544 U.S. 197 (2005),
of practical effect by holding that if an Indian tribe
purchases land on the open market and refuses to pay
property taxes, there is nothing a local jurisdiction
can do about it. That decision cannot be reconciled
with Sherrill, and it effectively grants tribes a super
immunity by rejecting the “uniform authority in
support of the view that” the “immovable property”
exception would preclude any sovereign’s efforts to
invoke sovereign immunity in these circumstances.
Upper Skagit, 138 S.Ct. at 1657 (Thomas, J.,
dissenting).
The question presented is:
Whether tribal sovereign immunity bars local tax
authorities from collecting lawfully imposed property
taxes by foreclosing on real property that a tribe has
acquired on the open market.

iii
STATEMENT OF RELATED PROCEEDINGS
This case arises from and is related to the
following proceedings in the United States Court of
Appeals for the Second Circuit, the United States
District Court for the Western District of New York,
and the County Court of the County of Seneca, New
York:
•
•
•
•

Cayuga Indian Nation of N.Y. v. Seneca
Cty., No. 19-32 (2d Cir.), judgment entered
Oct. 27, 2020;
Cayuga Indian Nation of N.Y. v. Seneca
Cty., No. 11-cv-06004 (W.D.N.Y.),
judgment entered Dec. 11, 2018;
Cayuga Indian Nation of N.Y. v. Seneca
Cty., No. 12-3723 (2d Cir.), judgment
entered July 31, 2014.
In the matter of Foreclosure of Tax Liens
By Proceeding In Rem Pursuant to Article
Eleven of the Real Property Tax Law by the
County of Seneca, State of New York,
County Court, County of Seneca, Index No.
42044 (petition filed Oct. 6, 2010)

There are no other proceedings in state or federal
trial or appellate courts directly related to this case
within the meaning of this Court’s Rule 14.1(b)(iii).

iv
TABLE OF CONTENTS
QUESTION PRESENTED ........................................ ii
STATEMENT OF RELATED PROCEEDINGS ...... iii
TABLE OF AUTHORITIES ..................................... vi
PETITION FOR WRIT OF CERTIORARI .................1
OPINIONS BELOW....................................................5
JURISDICTION ..........................................................5
STATEMENT OF THE CASE ....................................5
A. Sherrill and Madison County .......................5
B. Factual Background and Preliminary
Injunction Proceedings .................................9
C. Upper Skagit ...............................................10
D. Proceedings Below ......................................12
REASONS FOR GRANTING THE PETITION .......13
I.

This Court Has Twice Granted Certiorari To
Resolve The Issues Presented, And
Certiorari Is Equally Warranted Here ..............15

II. The Decision Below Conflicts With This
Court’s Decisions And Hornbook Law...............21
A. The Decision Below Conflicts With This
Court’s Decision in Sherrill ........................21
B. The Decision Below Erred In Holding the
Immovable-Property
Exception
Inapplicable Here ........................................26
III. The Question Presented Is Exceptionally
Important ...........................................................33
CONCLUSION ..........................................................35

v
APPENDIX
Appendix A
Opinion, United States Court of Appeals for
the Second Circuit, Cayuga Indian Nation of
N.Y. v. Seneca Cty., No. 19-0032 (Oct. 23,
2020) ............................................................. App-1
Appendix B
Decision and Order, United States District
Court
for
the
Western
District
of New York, Cayuga Indian Nation
of N.Y. v. Seneca Cty., No. 11-cv-6004 (Dec.
11, 2018) ..................................................... App-27
Appendix C
Opinion, United States Court of Appeals for
the Second Circuit, Cayuga Indian Nation of
N.Y. v. Seneca Cty., No. 12-3723 (July 31,
2014) ........................................................... App-38
Appendix D
Decision and Order, United States District
Court
for
the
Western
District
of New York, Cayuga Indian Nation
of N.Y. v. Seneca Cty., No. 11-cv-6004 (Aug.
20, 2012) ..................................................... App-43

vi
TABLE OF AUTHORITIES
Cases
Asociacion de Reclamantes
v. United Mexican States,
735 F.2d 1517 (D.C. Cir. 1984) ....................... 27, 31
Cass Cty. Joint Water Resource Dist.
v. 1.43 Acres of Land in Highland Twp.,
643 N.W.2d 685 (N.D. 2002) ..................... 18, 19, 20
Cayuga Indian Nation of N.Y. v. Pataki,
413 F.3d 266 (2d Cir. 2005) ............................. 22, 29
Cayuga Indian Nation of N.Y. v. Seneca Cty.,
761 F.3d 218 (2d Cir. 2014) ................................... 18
City of Sherrill
v. Oneida Indian Nation of N.Y.,
544 U.S. 197 (2005) ........................................ passim
Cty. of Yakima v. Confederated Tribes &
Bands of the Yakima Indian Nation,
502 U.S. 251 (1992) ................................................. 9
Franchise Tax Bd. of Cal. v. Hyatt,
139 S.Ct. 1485 (2019) ............................................ 27
Georgia v. City of Chattanooga,
264 U.S. 472 (1924) ................................... 19, 28, 30
Hamaatsa, Inc. v. Pueblo of San Felipe,
388 P.3d 977 (N.M. 2016) .....................18, 19, 20, 21
Kiowa Tribe of Oklahoma
v. Mfg. Techs., Inc.,
523 U.S. 751 (1998) ................................................. 8
Lundgren v. Upper Skagit Indian Tribe,
389 P.3d 569 (Wa. 2017) ....................................... 18
Madison Cty.
v. Oneida Indian Nation of N.Y.,
562 U.S. 42 (2011) ......................................... 8, 9, 16

vii
Michigan v. Bay Mills Indian Cmty.,
1572 U.S. 782 (2014) ............................................. 35
Okla. Tax Comm’n v. Citizen Band
Potawatomi Indian Tribe of Okla.,
498 U.S. 505 (1991) ................................................. 8
Oneida Indian Nation of N.Y.
v. City of Sherrill,
145 F.Supp.2d 226 (N.D.N.Y. 2001) ................. 6, 23
Oneida Indian Nation of N.Y.
v. City of Sherrill,
337 F.3d 139 (2d Cir. 2003) ............................... 6, 23
Oneida Indian Nation v. Madison Cty.,
605 F.3d 149 (2d Cir. 2010) ............................ passim
Permanent Mission of India to the UN
v. City of New York,
551 U.S. 193 (2007) ................................... 28, 29, 32
Schooner Exchange v. McFaddon,
11 U.S. (7 Cranch) 116 (1812) ......................... 11, 28
Scotto v. Kodsi,
958 N.Y.S.2d 740 (N.Y. App. Div. 2013) ............... 31
Upper Skagit Indian Tribe v. Lundgren,
138 S.Ct. 1649 (2018) ..................................... passim
Statutes
25 U.S.C. §5108 ........................................................ 22
28 U.S.C. §1610(a).................................................... 29
N.Y. CPLR §507 ....................................................... 31
Other Authorities
Br. for Respondents, City of Sherrill v.
Oneida Indian Nation of N.Y., 2004 WL
2246333 (U.S. filed Sept. 30, 2004)....................... 24

viii
Br. for the States of New York et al. as
Amici Curiae in Support of Petitioners,
Madison Cty. v. Oneida Indian Nation,
No. 10-72 (U.S. filed Dec. 10, 2010) ...................... 34
Cornelius van Bynkershoek, De Foro
Legatorum Liber Singularis (G. Laing
transl. 2d ed. 1946) ................................................ 27
C. Hyde, International Law (2d ed. 1945)............... 27
H. Lauterpacht, The Problem of
Jurisdictional Immunities of Foreign
States, 28 Brit. Y.B. Int’l Law 220 (1951)............. 26
Motion to Dismiss, Upper Skagit Indian
Tribe v. Lundgren, No. 91622-5
(Wa. Superior Ct. filed Dec. 3, 2018) .................... 12
Restatement (Second) of Foreign Relations
Law (1965) ................................................. 13, 29, 32
Restatement (Third) of Foreign Relations
Law(1987) .............................................................. 29
U.S. Dep’t of Interior, Bureau of Indian
Affairs, Frequently Asked Questions,
https://on.doi.gov/3iNnlCU (last visited
Feb. 17, 2021) ........................................................ 33
Emer de Vattel, The Law of Nations
(J. Chitty transl. 1853) .......................................... 31
Emer de Vattel, The Law of Nations
(C. Fenwick transl. 1916) ...................................... 27

PETITION FOR WRIT OF CERTIORARI
This case presents recurring questions that this
Court has twice granted certiorari to address but has
not yet been able to answer definitively. The Court
should grant certiorari and finally provide longawaited clarity on whether this Court meant what it
said in City of Sherrill v. Oneida Indian Nation of New
York, 544 U.S. 197 (2005), or whether tribal sovereign
immunity allows a tribe to permanently evade tax
liability for property acquired on the open market.
Under the decision below, a tribe can purchase land on
the open market anywhere in the country, refuse to
pay property taxes, and then claim immunity from
foreclosure proceedings to collect the unpaid taxes.
The same “logic” would appear to permit tribes to
block any form of compulsory regulatory action vis-àvis the land, allowing tribes to effectively remove
parcels from the tax rolls and create a jurisdictional
patchwork simply by acquiring parcels that had been
subject to local jurisdiction for centuries. If those
results sound like ones this Court would reject as
intolerable and inequitable, that is because the Court
did just that in Sherrill. But the decision below, like
earlier Second Circuit decisions before it, converts
Sherrill into a sport by granting the tribes the same
immunity as a practical matter that this Court
rejected in Sherrill.
In Sherrill, the Court held that when a tribe
acquires land in fee on the open market that was once
part of its historical reservation, the acquisition does
not revive its tribal sovereignty over that land or make
it immune from taxation. The alternative was utterly
impractical: Broad swaths of land throughout New

2
York would drop off the tax rolls and fall outside of
local regulatory jurisdiction after two centuries of local
control, creating a regulatory patchwork that would
seriously burden state and local governments. The
Court concluded that the mechanism for the Oneidas
to try to reestablish sovereign authority over
reacquired lands within its historical reservation was
through the trust process Congress created under 25
U.S.C. §5108, which precludes unilateral re-assertions
of sovereignty and ensures the consideration of the
competing interests of other parties.
Just a few years later, however, the Second
Circuit rendered Sherrill largely academic and
reintroduced all those impractical and inequitable
consequences by declaring the Oneidas’ property
taxable in theory but immune from all efforts to
actually collect the property taxes in practice. Oneida
Indian Nation v. Madison Cty., 605 F.3d 149 (2d Cir.
2010) (“Madison Cty.”). The Second Circuit recognized
that its decision “eviscerated” Sherrill and implored
this Court to grant review. This Court obliged, but
before it could correct the Second Circuit’s error, the
Tribe mooted the issue by purporting to waive its
sovereign immunity.
This case involves a different tribe but raises the
same issue. Over the past 25 years, the Cayuga
Indian Nation of New York has purchased dozens of
parcels of land in Seneca County through open-market
transactions. Like the Oneidas before them, the
Cayugas have refused to pay property taxes on that
land notwithstanding Sherrill, arguing that they are
immune from any effort to collect the taxes (while
continuing to accept all the same benefits and services

3
from the County as other taxpayers). Like the
Oneidas before them, the Cayugas sued the County to
enjoin it from foreclosing on the property that is
subject to these massive uncollected tax obligations.
And just as in the Oneida litigation, the Second Circuit
embraced the wholly impractical distinction between
assessing taxes (permitted by Sherrill) and collecting
them (immune under Second Circuit law), Indeed, the
court reached that impractical conclusion by invoking
the very same Madison County decision this Court
vacated after the Oneidas threw in the towel.
That alone makes this case certworthy for all the
reasons this Court granted certiorari in Madison
County. But the case for certiorari is more compelling
still, because the Second Circuit here rejected the one
argument that might have ameliorated the stark
conflict between Madison County and Sherrill—
namely, that even if the Cayugas retained sovereign
immunity despite Sherrill, efforts to collect unpaid
property taxes via foreclosure would fall within the
immovable-property exception to sovereign immunity.
That argument not only preserves Sherrill’s practical
effect, but also implicates the broader issue this Court
was unable to resolve in Upper Skagit Indian Tribe v.
Lundgren, 138 S.Ct. 1649 (2018).
The Court
confronted the immovable-property exception in
Upper Skagit but ultimately declined to determine its
bounds because the issue had not been considered
below, and thus left unresolved an issue that had
divided (and continues to divide) the lower courts.
Here, the Second Circuit squarely considered the
immovable-property exception and held that it does
not prevent the Oneidas from asserting sovereign

4
immunity, exacerbating the division among the lower
courts that led this Court to grant certiorari in Upper
Skagit. What is more, the Second Circuit’s ruling
contradicts the stated views of the only two Justices to
address the issue in Upper Skagit and produces
precisely the result that the Chief Justice indicated
would “need to be addressed in a future case.” Id. at
1656 (Roberts, C.J., concurring). Thus, the Second
Circuit’s decision addresses two related issues that
have merited this Court’s attention and resolves them
in ways that produce a practical immunity from
taxation that “defies common sense.” 605 F.3d at 164
(Cabranes, J., concurring).
The stakes here go well beyond the taxing
authority of one county. The decision below presents
a threat to the tax base and regulatory authority of
jurisdictions nationwide, even areas far removed from
any current or historic reservation. No one benefits
from having these issues unresolved, as the decision
below promises unnecessary friction between tribes
and non-tribal governments. The rules governing the
necessary
interactions
between
tribes
and
surrounding jurisdictions on lands where the tribes
are sovereign are well established. The possibility of
tribes re-asserting full sovereignty over lands
purchased on the open market and removing property
from the tax rolls and local regulatory control after
centuries of non-tribal jurisdiction, by contrast, is
profoundly unsettling. This Court recognized as much
in Sherrill, but the decision below deprives that
decision of practical effect. Thus, both respect for this
Court’s decisions and the need to avoid unnecessary
friction counsel strongly in favor of plenary review.

5
OPINIONS BELOW
The Second Circuit’s opinions are reported at 978
F.3d 829 and 761 F.3d 218 and reproduced at App.126 and App.38-42. The district court’s opinions are reported at 354 F.Supp.3d 281 and 890 F.Supp.2d 240
and reproduced at App.27-37 and App.43-61.
JURISDICTION
The Second Circuit entered its judgment on
October 27, 2020. On March 19, 2020, this Court
extended the deadline to file any certiorari petition
due after that date to 150 days. This Court has
jurisdiction under 28 U.S.C. §1254(1).
STATEMENT OF THE CASE
A. Sherrill and Madison County
1. In Sherrill, this Court held that when a tribe
acquires land in fee on the open market that was once
part of its reservation, the tribe does not thereby
revive its tribal sovereignty over that land. Sherrill
involved a dispute over land that was “within the
boundaries of the reservation originally occupied by
the Oneidas,” but had been privately held by nonIndians since 1807. 544 U.S. at 211. Although the
land had been in non-Indian hands for nearly two
centuries, the Oneidas argued that their reacquisition of it unified fee and aboriginal title and
allowed them to assert sovereign dominion. On that
basis, the Oneidas asserted that the land was exempt
from state property taxes and refused to pay the taxes
when assessed. Id. at 211-12.
Sherrill was not sanguine about the prospect of
having property unilaterally removed from its tax
rolls.
It first sent the Oneidas notices of tax

6
delinquency and, when they did not respond,
purchased the properties at a tax sale. See Oneida
Indian Nation of N.Y. v. City of Sherrill, 145
F.Supp.2d 226, 232-33 (N.D.N.Y. 2001). After the
period to redeem the properties elapsed, Sherrill
recorded deeds for the properties and initiated statecourt eviction proceedings.
Id.
The Oneidas
responded by suing Sherrill in federal court, seeking
an “injunction prohibiting Sherrill … from interfering
with the Nation’s ownership and possession of its
lands and from any effort to evict the Nation from such
lands.” Id. at 237. They also removed the state-court
action to federal court, where it was consolidated with
the federal lawsuit. Id. at 231-32.
In the now-consolidated action, the district court
enjoined Sherrill “from taking any act to impose
property taxes upon, or to collect property taxes with
respect to the properties.” Id. at 268. The Second
Circuit affirmed, holding that “Sherrill can neither tax
the land nor evict the Oneidas.” Oneida Indian Nation
of N.Y. v. City of Sherrill, 337 F.3d 139, 167 (2d Cir.
2003).
This Court granted certiorari and reversed nearly
unanimously, concluding that the Oneidas could not
assert sovereign dominion over the parcels because of
their “long delay in seeking equitable relief against
New York or its local units,” which “render[s]
inequitable the piecemeal shift in governance this suit
seeks unilaterally to initiate.” Sherrill, 544 U.S. at
221. And because the district court enjoined the
eviction proceedings on the faulty premise that the
Oneidas had sovereign dominion over the parcels, this

7
Court reversed the Second
affirming the injunction. Id.

Circuit’s

judgment

In his lone dissent, Justice Stevens suggested that
the Court’s reliance on equitable principles meant that
the Oneidas could still assert immunity as a defense
in the eviction proceeding, even though they could not
obtain the equitable relief of an injunction. Id. at 22526 (Stevens, J., dissenting). The majority expressly
rejected that curious and impractical argument, which
would have robbed the Court’s decision of its practical
force: “We disagree. The equitable cast of the relief
sought remains the same whether asserted
affirmatively or defensively.” Id. at 214 n.7.
2. Undeterred, the Oneidas continued to refuse to
pay delinquent property taxes on hundreds of
properties that, like the properties in Sherrill, had
been purchased on the open market after two
centuries of private ownership and state and local
taxation. When Madison County and Oneida County
proceeded to foreclose on Oneida-owned properties,
the Oneidas sought to enjoin those proceedings,
claiming that although Sherrill affirmed the counties’
authority to assess taxes, it did not address the
counties’ authority to collect those taxes via
foreclosure.
The district court granted an injunction, and the
Second Circuit affirmed, holding that “the foreclosure
actions are barred by the [Oneida Nation’s] immunity
from suit.” Madison Cty., 605 F.3d at 159. The Second
Circuit agreed with the Oneidas that “Sherrill dealt
with the right to demand compliance with state laws,”
not “the means available to enforce those laws.” Id.
Accordingly, while acknowledging that the counties

8
could validly impose property taxes, the court held
that the Oneidas could assert tribal immunity as a
defense to foreclosure after refusing to pay those
taxes. Id. at 159-60. The Second Circuit believed that
its result was dictated by Kiowa Tribe of Oklahoma v.
Manufacturing Technologies, Inc., 523 U.S. 751
(1998), and Oklahoma Tax Commission v. Citizen
Band Potawatomi Indian Tribe of Oklahoma, 498 U.S.
505 (1991), which recognized tribal immunity from
certain in personam suits. The majority nonetheless
recognized that its holding “eviscerates” Sherrill,
“making [the] essential right of government [to tax
properties] meaningless.” Madison Cty., 605 F.3d at
159.
Judge Cabranes, joined by Judge Hall, wrote a
concurring opinion characterizing the panel’s decision
(which they joined) as illogical: “The holding in this
case comes down to this: an Indian tribe can purchase
land (including land that was never part of a
reservation); refuse to pay lawfully-owed taxes; and
suffer no consequences because the taxing authority
cannot sue to collect the taxes owed.” Id. at 163.
While they viewed that holding as compelled by
precedent, they readily admitted that “[t]his rule of
decision defies common sense,” id., and implored this
Court to grant review and reunite “law and logic.” Id.
at 164.
This Court granted the counties’ petition for
certiorari, which asked “whether tribal sovereign
immunity from suit, to the extent it should continue to
be recognized, bars taxing authorities from foreclosing
to collect lawfully imposed property taxes.” Madison
Cty. v. Oneida Indian Nation of N.Y., 562 U.S. 42, 42

9
(2011). While the case was pending, however, the
Oneida Nation waived its purported immunity. Id.
This Court vacated and remanded “in light of this new
factual development,” id., and the case was resolved
on other grounds, App.6 n.5.
B. Factual Background and Preliminary
Injunction Proceedings
Over the past 25 years, the Cayugas have
purchased dozens of parcels in Seneca County through
open-market transactions. App.2. As in Sherrill, the
Cayugas maintain that this land was once part of their
reservation, but it is undisputed that the land was in
private hands for roughly 200 years before those openmarket purchases. App.6 n.4. Like the Oneida Nation
before them, and despite this Court’s decision in
Sherrill, the Cayugas have steadfastly refused to pay
property taxes on these parcels. App.4. The unpaid
tax bills accumulated and resulted in tax liens on the
parcels, and in 2010, Seneca County commenced
proceedings to foreclose on four of the parcels in state
court. App.5. The Cayugas responded by filing suit in
federal court, seeking to enjoin the state-court
foreclosure proceedings on grounds of sovereign
immunity (among others). App.5. In response, the
County argued both that Sherrill had already rejected
that argument and, in all events, that under County of
Yakima v. Confederated Tribes & Bands of the Yakima
Indian Nation, 502 U.S. 251 (1992), tribal sovereign
immunity does not apply to lawsuits involving rights
in real property outside a tribe’s sovereign domain.
The district court preliminarily enjoined the
foreclosure proceedings, deeming itself bound to
“follow the Second Circuit’s ruling in [Madison

10
County], which, although technically without effect
after being vacated, clearly rejects” Seneca County’s
reading of Sherrill. App.57. The court also rejected
the County’s argument that tribal sovereign immunity
is inapplicable to proceedings involving rights to real
property, opining that Yakima “did not involve tribal
sovereign immunity from suit.” App.59. The Second
Circuit affirmed. App.38-42. Relying on its vacated
decision in Madison County, the court “decline[d] to
draw the novel distinctions—such as a distinction
between in rem and in personam proceedings—that
Seneca County has urged.” App.41.
C. Upper Skagit
While summary judgment proceedings were
ongoing, this Court granted certiorari in Upper Skagit.
The dispute in Upper Skagit concerned the property
line between a parcel purchased by the Upper Skagit
Indian Tribe on the open market and an adjacent
parcel owned by the Lundgrens. 138 S.Ct. at 1651-52.
The Lundgrens filed a quiet-title action asserting
adverse possession over the disputed property, and
the Tribe claimed that sovereign immunity barred the
quiet-title action. Id. The Washington Supreme Court
rejected the Tribe’s claim of immunity, reading this
Court’s decision in Yakima as holding that sovereign
immunity does not apply to in rem lawsuits. Id. at
1652. Because lower courts were split on that
question, this Court granted certiorari to decide
whether “a court’s exercise of in rem jurisdiction
overcome[s] the jurisdictional bar of tribal sovereign
immunity.” Id. at 1656 (Thomas, J., dissenting).
In this Court, the Lundgrens conceded that the
Washington Supreme Court’s reliance on Yakima was

11
mistaken. Id. at 1653. But they urged this Court to
resolve the case on the basis that “sovereigns enjoyed
no immunity from actions involving immovable
property located in the territory of another sovereign.”
Id. Because the Lundgrens disclaimed reliance on
Yakima relatively late in the proceedings, this Court
vacated and remanded for the courts below “to address
these arguments in the first instance.” Id. at 1654.
Chief Justice Roberts, joined by Justice Kennedy,
wrote a concurring opinion noting that it would be
“intolerable” if the Lundgrens had no legal recourse
and identifying the immovable-property rule as the
likely solution. Id. at 1655 (citing Schooner Exchange
v. McFaddon, 11 U.S. (7 Cranch) 116, 145 (1812)).
While the Chief Justice did not object to allowing the
lower courts to address that issue in the first instance,
he noted that if the immovable-property rule “does not
extend to tribal assertions of rights in non-trust, nonreservation property, the applicability of sovereign
immunity in such circumstances would, in my view,
need to be addressed in a future case.” Id. at 1656.
Justice Thomas, joined by Justice Alito, dissented,
lamenting that “the disagreement that led us to take
this case will persist.” Id. at 1656. In his view, the
Court should have rejected the “clearly erroneous
tribal-immunity claim,” which “asserts a sweeping
and absolute immunity that no other sovereign has
ever enjoyed—not a State, not a foreign nation, and
not even the United States.” Id. at 1663. In a lengthy
and detailed historical analysis, he demonstrated that
“[t]he immovable-property exception has been
hornbook law almost as long as there have been

12
hornbooks” and that it applies to tribes in addition to
states and foreign countries. Id. at 1657-63.
After this Court’s decision, the Upper Skagit
Indian Tribe elected to quitclaim deed the property to
the Lundgrens, thereby mooting further proceedings.
See Motion to Dismiss 1, Upper Skagit Indian Tribe v.
Lundgren, No. 91622-5 (Wa. Superior Ct. filed Dec. 3,
2018).
D. Proceedings Below
After the Second Circuit affirmed the preliminary
injunction, the parties filed cross-motions for
summary judgment. Seneca County again argued
that Sherrill foreclosed the Cayugas’ sovereign
immunity argument and that, even apart from
Sherrill, the immovable-property doctrine foreclosed
the Cayugas’ claim to sovereign immunity. The
district court adopted its prior reasoning in full, ruling
that the foreclosure action is barred by tribal
sovereign immunity and permanently enjoining the
County from foreclosing on the properties. App.27-37.
The Second Circuit affirmed. Addressing the
immovable-property issue first, the court assumed
that tribal sovereign immunity is coextensive with
state and foreign sovereign immunity with respect to
immovable property. App.11-12. But it found the
immovable-property exception inapplicable here,
opining that foreclosure actions, even for failure to pay
taxes on the parcel at issue, fall outside the exception’s
scope. App.12-14. The court did not rest that view on
anything unique to the parcels in dispute, such as the
Cayugas’ claim that they were part of its historic
reservation. Instead, in its view, foreclosure actions—
i.e., lawsuits seeking to foreclose on tax liens on the

13
parcels and transfer title to them to the County or a
successful bidder at auction—do not qualify as
“actions for the determination of possession of, or an
interest in, immovable or real property located in the
territory of a state exercising jurisdiction.” App.15
(quoting Restatement (Second) of Foreign Relations Law
§68 cmt.d (1965)). While the court acknowledged that
the foreclosure actions would transfer both possession
and title, it insisted that “these tax enforcement
actions are—fundamentally—about money, not
property.” App.16.
The Second Circuit then addressed the County’s
argument that Sherrill foreclosed an assertion of
sovereign immunity from suits to collect taxes on real
property purchased on the open market. Adhering to
its reasoning in Madison County, the court held that
“Sherrill pertains to … whether a state or local
authority has the power to impose real property taxes
on tribal lands,” not to “whether a state may use the
courts against a tribe to collect taxes levied against
tribal lands.” App.23. The Court dismissed any
concern about the practical effects of its decision,
asserting that the County could “enter into an
agreement with the tribe” or “seek appropriate
legislation from Congress.” App.25.
REASONS FOR GRANTING THE PETITION
This case presents a perfect opportunity to answer
a question on which this Court has already granted
certiorari—namely,
whether
tribal
sovereign
immunity precludes any meaningful opportunity for
localities to collect the property taxes that this Court
in Sherrill held they could impose on property that
tribes purchased on the open market. Unless this

14
Court’s decision in Sherrill was a sport, the same
tribal immunity that was insufficient to prevent the
removal of parcels from the tax rolls cannot be
sufficient to preclude collection of taxes on those same
parcels (or prevent foreclosure on those same parcels
for failure to pay those same taxes). Nonetheless, the
Second Circuit held just that in Madison County,
prompting this Court to grant certiorari, only to vacate
the Second Circuit’s decision when the Tribe waived
any immunity it possessed. The decision below not
only reinstated the reasoning of the Second Circuit’s
vacated Madison County decision, but also rejected
the application of the immovable-property exception
to sovereign immunity, which this Court considered in
Upper Skagit. This case is thus the rare one that
implicates two related questions on which this Court
has already granted certiorari but been unable to
decide.
The decision below conflicts with both this Court’s
decision in Sherrill and centuries of hornbook law on
sovereign immunity. In Sherrill, this Court reversed
a decision that enjoined a local taxing authority from
foreclosing on property a tribe had purchased on the
open market, even though the parcels were within the
historic boundaries of the tribe’s reservation, citing
the vast inequity of removing from local tax rolls
property that had been under local jurisdiction for
centuries. That holding should have resolved this
case. The Second Circuit’s contrary decision not only
strips Sherrill of all practical significance but also
produces the very impractical and inequitable results
that Sherrill refused to countenance. And even apart
from Sherrill and its equitable principles, the decision
below conflicts with centuries of hornbook law, as

15
sovereign immunity has never extended to actions
relating to rights to immovable property in another
sovereign’s jurisdiction. That long-settled principle
plainly extends to a foreclosure action based on a
failure to pay property taxes on the very parcel at
issue.
The importance of this case is undeniable, as
evidenced by this Court’s two prior grants of certiorari.
Indeed, all nine Justices agreed in Upper Skagit that
the issues at stake are “grave,” affecting all tribes
across the country and every community in which
those tribes might decide to purchase land. Nothing
in the decision below purports to limit its analysis to
land within the historic boundaries of a reservation.
Instead, if the decision below stands, then tribes can
go to any community in the country, purchase land on
the open market, and flout local taxes (and other land
regulations) with impunity. That is precisely the
result this Court sought to prevent with its decision in
Sherrill, precisely the result the Second Circuit in
Madison County said was “so anomalous that it calls
out for the Supreme Court to … [reunite] law and
logic,” and precisely the result the Chief Justice in
Upper Skagit noted “would … need to be addressed in
a future case” if it came to pass. The decision below
invites all those inequities and reduces Sherrill to an
abstraction. The need for this Court’s review is clear.
I.

This Court Has Twice Granted Certiorari To
Resolve The Issues
Presented, And
Certiorari Is Equally Warranted Here.

1. In Madison County, this Court granted
certiorari to decide the same question presented here:
“[W]hether tribal sovereign immunity … bars taxing

16
authorities from foreclosing to collect lawfully imposed
property taxes.” That grant of certiorari followed a
plea for review from two Second Circuit judges who
felt bound by precedent to hold that tribal sovereign
immunity bars foreclosure actions, but recognized the
conflict with Sherrill and that the resulting “rule of
decision”—that localities are free to impose property
taxes on tribes that they cannot collect—“defies
common sense.” Madison Cty., 605 F.3d at 163
(Cabranes, J., concurring). The concurring judges
implored this Court to grant certiorari, explaining
that the result was “so anomalous that it calls out for
the Supreme Court” to reunite “law and logic … in this
area of the law.” Id. at 164. Indeed, even the majority
opinion recognized that its holding “eviscerates
Sherrill” and renders “meaningless” a taxation power
this Court considered necessary to avoid inequitable
results. Id. at 159.
In light of the Second Circuit’s deep reservations
about its own opinion, the clear incompatibility with
Sherrill, and the disruptive consequences of removing
broad swaths of property from state and local tax rolls,
this Court granted the counties’ petition for certiorari.
But before the Court could correct the Second Circuit’s
error, the Oneidas waived any claim to sovereign
immunity, leading this Court to vacate and remand for
consideration of other issues. Madison Cty., 562 U.S.
at 42. The case was ultimately resolved on other
grounds, App.6 n.5, leaving unanswered the vitally
important question on which the Court granted
certiorari.
While the Madison County decision was vacated,
the Second Circuit has since doubled down on its

17
reasoning and essentially treated it as having
definitely resolved the issue despite this Court’s
vacatur. Thus, all the reasons that supported this
Court’s plenary review in Madison County fully
support certiorari here. Over the past 25 years, the
Cayugas have purchased dozens of parcels of land in
Seneca County through open-market transactions and
have refused to pay property taxes on that land. Like
the Oneida Nation before them, the Cayugas sued the
County to enjoin it from foreclosing on the property on
which the Cayugas refused to pay taxes. And just as
in Madison County, the Second Circuit accepted their
dubious distinction between imposing taxes
(permitted by Sherrill) and enforcing them (precluded
by the Second Circuit). Indeed, the decision below
adopts Madison County’s flawed reasoning in full,
embracing the same “anomalous” result that
“eviscerates” Sherrill and renders its holding
“meaningless.” Madison Cty., 605 F.3d at 159, 164; see
infra Part II.A. Just as it did in Madison County, that
intolerable result “calls out for” review. 605 F.3d at
164 (Cabranes, J., concurring).
2. This case actually presents an even stronger
case for certiorari than Madison County because the
court went on to reject an alternative basis for giving
Sherrill practical effect that implicates a limitation on
sovereign immunity this Court considered in Upper
Skagit. There, this Court granted certiorari to address
the scope of tribal immunity from actions involving
rights to immovable property that a tribe acquired in
fee on the open market. The question in Upper Skagit,
which arose from a quiet-title action, was whether “a
court’s exercise of in rem jurisdiction overcome[s] the
jurisdictional bar of tribal sovereign immunity.” 138

18
S.Ct. at 1656 (Thomas, J., dissenting). This Court
granted certiorari because “[s]tate and federal courts
are divided on that question.” Id. One case this Court
cited in describing the split was the Second Circuit’s
earlier preliminary-injunction decision in this case,
which this Court noted was consistent with a decision
from the New Mexico Supreme Court but in conflict
with a decision from the North Dakota Supreme Court
(as well as with the Washington Supreme Court
decision under review). Id. at 1651 n.*. 1
Briefing and argument in this Court focused
largely on whether sovereigns were historically
immune from actions involving immovable property
located in another sovereign’s territory. See id. at
1653-54. But because the Washington Supreme Court
had not addressed that question, this Court vacated
and remanded instead of addressing it in the first
instance. Id. at 1654-55. As a result, as Justice
Thomas noted in dissent, “the disagreement that led
us to take this case will persist.” Id. at 1656. The
Tribe in Upper Skagit ultimately relinquished its
claim to the disputed property, depriving this Court of
an opportunity to revisit the question it reserved and
provide lower courts with much-needed clarity.
As things currently stand, the North Dakota
Supreme Court, the New Mexico Supreme Court, and
the Second Circuit are divided three ways over
Compare Lundgren v. Upper Skagit Indian Tribe, 389 P.3d
569, 573-74 (Wa. 2017); Cass Cty. Joint Water Resource Dist. v.
1.43 Acres of Land in Highland Twp., 643 N.W.2d 685, 691-93
(N.D. 2002), with Hamaatsa, Inc. v. Pueblo of San Felipe, 388
P.3d 977, 986 (N.M. 2016); Cayuga Indian Nation of N.Y. v.
Seneca County, 761 F.3d 218, 221 (2d Cir. 2014) (App.38-42).
1

19
whether and how the immovable-property exception
applies to lawsuits involving property in which a tribe
holds fee title. At one end of the spectrum, the North
Dakota Supreme Court held that the exception covers
all disputes over real property that a tribe owns
outside its sovereign dominion. The issue in Cass
County was whether the state could condemn a small
parcel of land in which a tribe held fee title. See 643
N.W.2d at 687-88. Invoking this Court’s precedent
applying the immovable-property exception to states,
the court held that “the Tribe’s sovereign immunity is
not implicated” when states or other political
subdivisions exercise territorial jurisdiction over nontrust, non-sovereign land in which a tribe holds fee
ownership, including (but not limited to) in “an in rem
condemnation action.” Id. at 693-94 (citing Georgia v.
City of Chattanooga, 264 U.S. 472 (1924)); see Upper
Skagit, 138 S.Ct. at 1655 (Roberts, C.J., concurring)
(identifying Chattanooga as a decision applying the
immovable-property doctrine); id. at 1660 (Thomas, J.,
dissenting) (same); App.12 n.6 (same). 2
At the other end, the New Mexico Supreme Court
in Hamaatsa rejected any immovable-property
limitation on tribal sovereign immunity.
In
Hamaatsa, a private plaintiff sued the Pueblo, seeking
a declaration that it could use a road on land the Tribe
held in fee but was not “held in trust by the federal
government as part of the … reservation.” 388 P.3d at
979. The court held that the Tribe was immune from
the lawsuit, reasoning that tribes are “immune from
2 The North Dakota Supreme Court also relied on Yakima, see
643 N.W.2d at 691-92, but unlike the Washington Supreme Court
in Upper Skagit, it did not do so exclusively.

20
suit[] absent a waiver of [their] immunity or
congressional authorization of the suit—regardless of
the nature of the claim giving rise to the dispute.” Id.
at 982.
In reaching that conclusion, the court
expressly rejected the North Dakota Supreme Court’s
reasoning in Cass County and any “carve[] out” from
sovereign immunity “for in rem actions.” Id. at 986.
Instead, the court explained that it would “choose to
follow the Second Circuit”—viz., the preliminaryinjunction decision in the proceedings below here. Id.
The decision below exacerbates the pre-existing
split by charting a third course. The Second Circuit
acknowledged that the common law has long
recognized an exception to sovereign immunity for
actions to determine rights in immovable property.
App.12-13.
But the court held that exception
inapplicable because, in its view, it does not apply to
suits seeking to recover delinquent taxes on real
property via foreclosure.
Although the court
acknowledged that the foreclosure action sought to
enforce tax liens for property taxes assessed on the
very parcels subject to foreclosure and that a
successful action would result in transfer of title, see
App.16-17, it determined that foreclosure actions “fall
outside” the immovable-property exception because
the “transfer of title” “would simply serve as a remedy”
for rights in immovable property, but would not itself
“determine rights in immovable property,” App.16-17.
That reasoning is incompatible with the North
Dakota Supreme Court’s view that tribal sovereign
immunity “is not implicated” by actions involving
rights in real property that a tribe owns outside its
sovereign domain, Cass Cty., 643 N.W.2d at 693-64,

21
and is likewise incompatible with the New Mexico Supreme Court’s refusal to apply the immovable-property exception to tribal immunity at all, see Hamaatsa,
388 P.3d at 982-83, 986. Accordingly, certiorari is
warranted to resolve the still-extant split of authority
that this Court granted certiorari in Upper Skagit to
resolve.
II. The Decision Below Conflicts With This
Court’s Decisions And Hornbook Law.
A. The Decision Below Conflicts With This
Court’s Decision in Sherrill.
The decision below is not just certworthy; it is
wrong and irreconcilable with this Court’s decision in
Sherrill.
In Sherrill, this Court held nearly
unanimously that tribal sovereign immunity does not
bar a local taxing authority from pursuing eviction
proceedings concerning parcels purchased by a tribe
on the open market. The Oneidas argued that because
the lands were located within the historic boundaries
of their reservation, by purchasing the lands on the
open market, they had “unified fee and aboriginal
title” and now exercised “sovereign dominion over the
parcels,” such that they were immune from local
efforts to impose property taxes or seize the lands via
eviction provisions. Sherrill, 544 U.S. at 213. This
Court squarely rejected that argument and held that
whatever interest the Oneidas possessed in the newly
re-acquired lands, it was insufficient to support an
immunity from efforts to tax the lands pursuant to
state and local powers that had been exercised vis-àvis the land for two centuries. As the Court explained,
Congress has created a process for reacquiring
sovereign control over former reservation property,

22
and that process carefully weighs local governance
and other equitable considerations. See 25 U.S.C.
§5108.
Allowing tribes to unilaterally “reassert
sovereign control and remove these parcels from the
local tax rolls” after “two centuries of New York’s
exercise of regulatory jurisdiction” not only would
render that process a nullity, but would be profoundly
“disruptive” and “inequitable.” 544 U.S. at 215-17,
220-21.
That holding should have resolved this case. The
land at issue here—real property purchased by the
Cayuga Nation through open market transactions and
owned in fee—is identically situated to the land in
Sherrill. See, e.g., Cayuga Indian Nation of N.Y. v.
Pataki, 413 F.3d 266, 268 (2d Cir. 2005). Indeed, while
the Cayugas have vaguely asserted that they
maintain “some” regulatory jurisdiction over the
parcels, they do not claim that their parcels are
distinguishable from the parcels in Sherrill or that the
rule of Sherrill does not apply to them.
The Second Circuit nevertheless held that the
Cayugas are immune from foreclosure proceedings.
The Second Circuit attempted to reconcile that
holding with Sherrill by claiming that “Sherrill
pertains to … whether a state or local authority has
the power to impose real property taxes on tribal
lands,” not “whether a state may use the courts
against a tribe to collect taxes levied against tribal
lands.” App.23. In other words, it read Sherrill as
holding only that the city could impose taxes on the
Oneidas but leaving open whether the city could do
anything to collect those taxes.

23
That reading is mystifying. Sherrill plainly
addressed both the city’s power to assess taxes and its
power to collect them via eviction proceedings.
Indeed, if anything, Sherrill was primarily about the
latter. Sherrill came to this Court as a consolidated
action consisting of (1) a removed state-court eviction
proceeding and (2) a federal equity proceeding seeking
to enjoin that eviction action. Unsurprisingly in light
of that posture, the relief the Oneidas sought in
district court was expressly about eviction—namely,
to “prohibit[] Sherrill … from any effort to evict the
Nation.” Oneida Indian Nation, 145 F.Supp.2d at 237.
The relief the Oneidas obtained was likewise evictionfocused: The district court enjoined Sherrill “from
taking any act to impose property taxes upon, or to
collect property taxes with respect to the properties,” id.
(emphasis added), and the Second Circuit affirmed,
holding that “Sherrill can neither tax the land nor
evict the Oneidas,” Oneida Indian Nation, 337 F.3d at
167 (emphasis added). Accordingly, as the case came
to this Court, Sherrill was not some academic dispute
about the power to impose taxes in the abstract. The
stakes were clear and concrete: Sherrill asserted the
right to evict the Oneidas for their refusal to pay taxes,
and the Oneida asserted tribal sovereign immunity to
continue to possess their lands without paying taxes.
The City of Sherrill won, and the Second Circuit
decision and district court injunction were reversed.
And the Oneidas’ unsuccessful argument was not
limited to the state and local authority to assess taxes,
but plainly extended to eviction and foreclosure
proceedings. They contended that, by uniting fee and
aboriginal title, they had created a “federally
protected possessory right,” which “bars New York

24
and its political subdivisions from taking Oneida land
from the Oneidas today through tax foreclosures and
evictions.” Br. for Respondents 16, City of Sherrill v.
Oneida Indian Nation of N.Y., 2004 WL 2246333 (U.S.
filed Sept. 30, 2004). In rejecting that argument, the
Court’s holding was likewise not limited to the
assessment of taxes in the abstract, but equally
extended to foreclosures and evictions. Indeed, when
Justice Stevens suggested in his lone dissent that the
majority’s opinion only barred the Oneidas from
affirmatively invoking the equitable jurisdiction of the
federal courts, and might not preclude them from
asserting immunity defensively in the removed-fromstate-court eviction proceeding, 544 U.S. at 225-26,
the majority would have none of it. In response, the
Court squarely held that the Tribe was equally barred
from asserting immunity defensively in the conjoined
eviction proceeding: “The dissent suggests that,
compatibly with today’s decision, the Tribe may assert
tax immunity defensively in the eviction proceeding
initiated by Sherrill. We disagree. The equitable cast
of the relief sought remains the same whether
asserted affirmatively or defensively.” Id. at 214 n.7.
Sherrill thus holds, in direct conflict with the decision
below, that tribal sovereign immunity is no defense in
eviction and foreclosure proceedings involving like
those at issue here.
2. The decision below not only contradicts the
square holding of Sherrill, but turns that decision into
nothing more than a sport. Given that the Court’s
decision was driven by the inequitable and impractical
consequences of the Oneidas’ argument, reimagining
it as a decision about tax assessment (and not tax
collection) makes no sense. What bothered the City of

25
Sherrill and this Court was not whether Sherrill could
send the Tribe a tax assessment along with the other
property owners in the city. What bothered the City
of Sherrill and this Court was whether the Tribe could
unilaterally remove the parcels from the tax rolls and
create a “checkerboard of alternating state and tribal
jurisdiction in New York State” that “would seriously
burden the administration of state and local
governments and would adversely affect landowners
neighboring the tribal patches.”
Id. at 219-20
(alteration omitted). Those concerns are all about tax
collection, not tax assessment. And the decision below
unleashes the very same inequitable consequences by
effectively removing from the tax rolls property that
has been taxable for two centuries and allowing Indian
tribes to unilaterally create a patchwork of
unregulated enclaves throughout the entire country.
In fact, the decision below is even more
problematic because its “logic” is not even limited to
parcels within a historic reservation. What drives the
Second Circuit’s misguided immunity analysis is not
that the Cayugas have reunited fee and aboriginal
title, but the bare fact that the Cayugas are a tribe
with tribal immunity. That cannot remotely be
squared with Sherrill. Indeed, if the decision below is
correct, then Sherrill was not just academic but
nonsensical. The premise of the opinion is that even
the reunification of fee and aboriginal title is not
sufficient to overcome the equitable problems with an
immunity from state and local taxation. The premise
of the decision below is that reunification of fee and
aboriginal title is not even necessary, as any tribe that
obtains any land in fee can resist all state and local
efforts to collect property taxes.
If the latter

26
proposition is true, then this Court’s decision in
Sherrill was entirely beside the point.
The better reading, of course, is that this Court
knew exactly what it was doing in Sherrill—namely,
holding that tribal sovereign immunity is no bar to
foreclosure and eviction proceedings involving
property that a tribe acquires outside its sovereign
dominion. This Court should grant certiorari to
restore that result and confirm that Sherrill’s holding
cannot be evaded by granting tribes a functionally
identical immunity that creates identically intolerable
inequities.
B. The Decision Below Erred In Holding
the
Immovable-Property
Exception
Inapplicable Here.
1. In addition to failing to faithfully apply
Sherrill, the decision below erred in finding the
immovable-property exception to sovereign immunity
inapplicable here. For “almost as long as there have
been hornbooks,” it has been hornbook law that “‘there
is no immunity from jurisdiction with respect to
actions relating to immovable property.’” Upper
Skagit, 138 S.Ct. at 1657 (Thomas, J., dissenting)
(quoting H. Lauterpacht, The Problem of
Jurisdictional Immunities of Foreign States, 28 Brit.
Y.B. Int’l Law 220, 244 (1951)). 3 This principle reflects
the fact that “[a] territorial sovereign has a primeval
interest in resolving all disputes over use or right to
3 Neither the majority nor the concurring opinions in Upper
Skagit disputed Justice Thomas’s description of the immovableproperty doctrine and its historical pedigree. See, e.g., Upper
Skagit, 138 S. Ct. at 1655-56 (Roberts, C.J., concurring).

27
use of real property within its own domain.”
Asociacion de Reclamantes v. United Mexican States,
735 F.2d 1517, 1521 (D.C. Cir. 1984) (Scalia, J.).
Accordingly, when disputes over rights in real
property arise, sovereign immunity does not bar the
territorial sovereign from resolving those disputes.
See id.
That international-law principle traces back to
the very roots of international law. In his 18th century
treatise, Cornelius van Bynkershoek noted his
agreement with 16th-century scholar Oswald Hilliger
that “property which a prince has purchased for
himself in the dominions of another … shall be treated
just like the property of private individuals and shall
be subject in equal degree to burdens and taxes.”
Cornelius van Bynkershoek, De Foro Legatorum Liber
Singularis 22 (G. Laing transl. 2d ed. 1946). Writing
shortly after Bynkershoek, Vattel, “the founding era’s
foremost expert on the law of nations,” Franchise Tax
Bd. of Cal. v. Hyatt, 139 S.Ct. 1485, 1493 (2019),
similarly explained that when “sovereigns have fiefs
and other possessions in the territory of another
prince; in such cases they hold them after the manner
of private individuals.” 2 Emer de Vattel, The Law of
Nations §83, p. 139 (C. Fenwick transl. 1916). That
principle remains equally entrenched today: “All
modern authors are … agreed that in all disputes in
rem regarding immovable property, the judicial
authorities of the State possess as full a jurisdiction
over foreign States as they do over foreign
individuals.” 2 C. Hyde, International Law 848, n. 33
(2d ed. 1945).

28
Unsurprisingly in light of this history, this Court
has repeatedly endorsed the principle that sovereign
immunity does not preclude lawsuits relating to rights
in immovable property within another sovereign’s
jurisdiction. In Schooner Exchange, for example,
Chief Justice Marshall explained that “the property of
a foreign sovereign is not distinguishable by any legal
exemption from the property of an ordinary
individual.” 11 U.S. at 145-46. Accordingly, “[a]
prince, by acquiring private property in a foreign
country,” subjects “that property to the territorial
jurisdiction.” Id. With respect to that property, “he
may be considered as so far laying down the prince,
and assuming the character of a private individual.”
Id. at 145. This Court later reiterated the point in
affirming Chattanooga’s right to seize by eminent
domain land owned in fee by Georgia, explaining that
state sovereign immunity does not extend to “[l]and
acquired by one State in another State.” City of
Chattanooga, 264 U.S. at 480. With respect to its real
property in Tennessee, “[Georgia] occupies the same
position there as does a private corporation … and …
cannot claim sovereign privilege or immunity.” Id. at
481.
Consistent with its status as a precept of
international law, this principle is not limited to
actions that any one domestic sovereign treats as in
rem versus in personam. For example, this Court held
in Permanent Mission of India to the UN v. City of New
York, 551 U.S. 193 (2007), that foreign sovereigns
were not immune from “a lawsuit to declare the
validity of tax liens on property” in New York City. Id.
at 195.
Interpreting the Foreign Sovereign
Immunities Act of 1976 (FSIA) but doing so with

29
reference to the broader immovable-property
principles that “the FSIA was … meant to codify,” id.
at 200, this Court held that lawsuits against foreign
governments in which “rights in immovable property
situated in the United States are in issue” fall outside
the scope of foreign sovereign immunity, id. at 197.
And because the city’s lawsuit to establish “the
validity of a tax lien on property is a suit to establish
an interest in such property,” the lawsuit was not
barred by sovereign immunity. Id. at 199-200. 4
To be sure, while it is not limited to any one
sovereign’s conception of in rem jurisdiction, the
immovable-property exception does not apply to every
lawsuit that relates in some remote way to real
property. For example, it does not apply to claims that
are merely “incidental to property ownership, such as
actions involving an injury suffered in a fall on the
property.” Id. at 200 (quoting Restatement (Second)
of Foreign Relations Law §68); see App.13. But it
applies with full force to all “actions for the
determination of possession of, or an interest in,
immovable or real property located in the territory of
a state exercising jurisdiction.” App.15 (quoting
Restatement (Second) of Foreign Relations Law §68
cmt.d).
2. The immovable-property exception provides an
alternative ground for reversing the decision below.
4 Because Permanent Mission involved diplomatic residences,
New York conceded that it could not enforce the tax liens even if
the Court deemed them valid. 551 U.S. at 195-96 n.1; see also 28
U.S.C. §1610(a)(4)(B); Restatement (Third) of Foreign Relations
Law §455, cmt.b (1987)). That limitation on enforcement has no
application here.

30
Under Sherrill, the land here is indisputably outside
the Cayuga Nation’s sovereign domain. These actions,
moreover, are simply designed to hold the Cayugas to
account for their tax obligations to the very property
at issue. Thus, they are self-evidently actions “for the
determination of possession of, or an interest in,
immovable or real property.” Id. Indeed, even the
Second Circuit acknowledged that “if Seneca County
prevailed in the Foreclosure Actions, it would acquire
title to the Properties.” App.17. That is exactly how
the County would enforce the tax obligations of any
other taxpayer in the County. Accordingly, with
respect to the foreclosure actions, the Cayuga
“occup[y] the same position” as would any private
party, and therefore “cannot claim sovereign privilege
or immunity.” City of Chattanooga, 264 U.S. at 481.
The Second Circuit concluded otherwise not
because it disputed the historical pedigree of the
immovable-property exception, or because it believed
that the exception does not apply to tribal sovereign
immunity. Instead, the Second Circuit opined that
foreclosure actions are not “actions for the
determination of possession of, or an interest in,
immovable or real property” because they “are—
fundamentally—about
money,
not
property.”
App.15-16. In the Second Circuit’s view, because the
purpose of the foreclosure actions is to satisfy “the
Cayugas’ financial debt for accrued, unpaid property
taxes,” they are not “actions to determine rights in
immovable property” but rather “actions to pursue a
remedy that is available to Seneca County by virtue of
its rights in immovable property.” App.16-17.

31
That analysis has no basis in logic or law. This is
not an effort to satisfy some unrelated debt by taking
action against the property. This is an action by the
territorial sovereign to enforce property taxes
assessed against the very property at issue. As such,
this action is all about the immovable property at
issue. The immovable-property exception applies
broadly to all disputes in which rights to immovable
property are in issue. See, e.g., 1 Emer de Vattel, The
Law of Nations §115, p. 493 (J. Chitty transl. 1853)
(“All contests and lawsuits concerning [immovable]
property are to be carried before the tribunals of the
country; and those same tribunals may decree its
seizure in order to satisfy any legal claim.” (emphasis
added)).
Here, the foreclosure actions plainly
implicate rights in immovable property; indeed, it is
hard to imagine a lawsuit that is more fundamentally
“for the determination of possession of, or an interest
in, immovable or real property” than a lawsuit that
aims to oust one party from possession and vest title
in the other based on a failure to pay taxes on the
parcel. 5
The Second Circuit’s contrary conclusion is
plainly incompatible with Permanent Mission. There,
as here, the underlying dispute was about property
taxes: The governments of India and Mongolia were
The Second Circuit’s conclusion that a foreclosure action does
not “fundamentally” concern “property,” App.16, also conflicts
with the “local action rule,” which gives local courts “exclusive”
authority “to settle questions” that “directly implicate interests
in the property or rights to possession.” Reclamantes, 735 F.2d
at 1521-22. New York courts have held that a foreclosure action
is a local action. See N.Y. CPLR §507; Scotto v. Kodsi, 958
N.Y.S.2d 740, 742 (N.Y. App. Div. 2013).
5

32
delinquent on several years of property taxes, leading
to the imposition of tax liens and New York City’s
declaratory actions to confirm the validity of those
liens. This Court nevertheless had no difficulty
concluding that the immovable-property exception
applied, holding that “a suit to establish the validity
of a tax lien places rights in immovable property … in
issue.” 551 U.S. at 202. The application of the
immovable-property exception here follows a fortiori:
If a suit to merely impose a tax lien places possession
of and rights to immovable property in issue, so too
must a suit to take title and possession of that
property by foreclosing on the lien.
The Second Circuit perceived support for its
interpretation in the Second Restatement, but that too
was misguided.
Looking to the Restatement’s
“General Rule” of sovereign immunity, the court cited
a comment that sovereign immunity “prevents the
actual enforcement against the property of a foreign
state of a tax claim of the territorial state.”
Restatement (Second) of Foreign Relations Law §65,
cmt.d. But whatever application that general rule
may have to movable property, section 65 makes clear
that its general rule applies “except as stated in §68,”
which specifically addresses immovable property. Id.
§65(1). And Section 68 makes clear that sovereign
immunity does not apply to foreclosure proceedings
concerning immovable property: “The immunity from
jurisdiction of a foreign state does not extend to
actions for the determination of possession of, or an
interest in, immovable or real property located in the
territory of a state exercising jurisdiction.” Id. §68
cmt.d.

33
In short, the Second Circuit’s conclusion that the
immovable-property exception is inapplicable to
foreclosure proceedings is inconsistent with historical
doctrine, incompatible with this Court’s cases, and
wholly without grounding in logic or law. For this
reason too, certiorari is warranted.
III. The Question Presented Is Exceptionally
Important.
The importance of this case is undeniable. As all
nine Justices agreed in Upper Skagit, “[d]etermining
the limits on the sovereign immunity held by Indian
tribes is a grave question; the answer will affect all
tribes.” 138 S.Ct. at 1654; see also id. at 1655 (Roberts,
C.J., concurring); id. at 1657 (Thomas, J., dissenting).
That question is no less grave for non-tribal parties
throughout the country, including states and local
jurisdictions like Seneca County, which have been
denied the promise of Sherrill for well over a decade,
despite this Court’s decision to grant certiorari 11
years ago to review Second Circuit doctrines that by
the judges’ own admission produce results that defy
logic.
No one’s interests are served by further delay and
uncertainty.
There are nearly 600 federally
recognized tribes in the United States. See U.S. Dep’t
of Interior, Bureau of Indian Affairs, Frequently Asked
Questions, https://on.doi.gov/3iNnlCU (last visited
Feb. 17, 2021). Every one of those tribes has to coexist with state governments, and virtually all need to
reach accommodations with nearby local jurisdictions.
The rules for the interactions between tribes and
state, local, and federal authorities on current
reservations and trust land are reasonably well

34
established. But as this Court recognized in Sherrill,
the potential for friction among jurisdictions becomes
untenable if tribes can unilaterally re-establish full
sovereignty simply by making open-market purchases
of parcels that have been on the local tax rolls for
centuries. And the potential for friction engendered
by the decision below is not even limited to historic
reservations. Because the “[t]he Second Circuit’s
holding does not depend on the tribal history or legal
status of the land but follows solely from the fact of
tribal fee ownership today,” any tribe “could buy real
property anywhere in the United States, e.g., the
Empire State Building, refuse to pay real property
taxes, and invoke sovereign immunity from suit as an
absolute defense to the resulting foreclosure action.”
Br. for the States of New York et al. as Amici Curiae
in Support of Petitioners 16, Madison Cty. v. Oneida
Indian Nation, No. 10-72 (U.S. filed Dec. 10, 2010).
Nor is the threat limited to the tax rolls. If the
Second Circuit’s understanding of the immovableproperty exception were correct—and if states and
local subdivisions really were without recourse in
cases like this one—then tribes could obtain practical
immunity not just from taxes but from zoning,
environmental, and other regulatory laws—simply by
purchasing land in fee. Indeed, as the Chief Justice
noted in Upper Skagit, if the immovable-property
doctrine “does not extend to tribal assertions of rights
in non-trust, non-reservation property,” then “the
applicability of sovereign immunity in such
circumstances would … need to be addressed in a
future case,” for “[t]he correct answer cannot be that
the tribe always wins no matter what.” 138 S.Ct. at
1655-56; cf. Michigan v. Bay Mills Indian Cmty., 1572

35
U.S. 782, 799 n.8 (2014) (noting that an exception to
immunity may be warranted if a “plaintiff who has not
chosen to deal with a tribe has no alternative way to
obtain relief for off-reservation commercial conduct”).
Fortunately, both Sherrill and the immovableproperty exception preclude such inequitable results.
By minimizing both doctrines, the decision below
creates a rule that “defies common sense.” Madison
Cty., 605 F.3d at 163-64 (Cabranes, J., concurring).
This Court should grant review and reunite “law and
logic,” id. at 164, in the Second Circuit and
nationwide.
CONCLUSION
The Court should grant the petition.
Respectfully submitted,
BRIAN LAUDADIO
MARY P. MOORE
LOUIS P. DILORENZO
BOND, SCHOENECK &
KING PLLC
350 Linden Oaks
Third Floor
Rochester, NY 14625

PAUL D. CLEMENT
Counsel of Record
ERIN E. MURPHY
MICHAEL D. LIEBERMAN
ANDREW C. LAWRENCE
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Counsel for Petitioner

February 17, 2021

